0=616?.

iO

IN THE
SUPREME COURT OF THE UNITED STATES
F areed- S epehry-F ard--- PETITION
v.

tjfl

THE UNITED STATES,---- RESPONDENTS (s)
ON PETITION FOR WRIT OF CERTIORARI TO

PILED
OCT 1 'i 2020

United States Court of Appeals for
the Federal Circuit, Case No. 20-1100
After an Unpublished Decision by the Court of Appeal
PETITION FOR WRIT OF CERTIORARI
Fareed-Sepehry-Fard, Sui Juris
C/o 12309 Saratoga Creek Dr.
Saratoga, the State of California, Santa Clara County
(Zip code Exempt DMM 602 sec 1.3(e))
Phone Number (408) 690-4612
Email: Ahuraenergysolarcells@msn

RECEIVED
OCT 2' 2020

TABLE OF CONTENTS
QUESTION PRESENTED

1

OPINIONS BELOW.

4

JURISDICTION

,4

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

5

STATEMENT OF THE CASE

5

A.

B.
C.
D.

What the Petition to Enforce Petitioner's Non
Judicial Judgment Asked the United States
Court of Appeals for the Federal Circuit to Do?

.23

Trial Court Proceedings

.24

The Court of Appeal Affirms
Post-opinion proceedings

B.

,27
30

ARGUMENT
A.

25

This Court should grant review to end confusion in the
lower California courts over the unanimous decision in
Henry Schein, Inc., et al. v. Archer & White Sales, Inc.
that arbitration award is not a cause of action but a fact

30

Title 28 US Code Section 1653 Violation.

33

REASONS FOR GRANTING THE WRIT

34

CONCLUSION

36

-l-

INDEX TO APPELLANT’S TRANSCRIPT US
Court of Federal CASE #:
I

Docket Sheet for Case # l:18-cv-01118-VJW

2

Docket No. 1 - Verified Complaint for Injunctive
and Declaratory Relief and for Compensatory
Damages
Docket No. 10 - VERIFIED OPPOSITION TO
DEFENDANT’S MOTION TO DISMISS
PLAINTIFF'S VERIFIED COMPLAINT;
MEMORANDUM OF POINTS AND
AUTHORITIES; VERIFICATION
Docket No. 11 - VERIFIED MOTION FOR AN
ORDER TO SHOW CAUSE WHY PLAINTIFF
SHOULD NOT BE PAID HIS ECONOMIC
DAMAGES; MEMORANDUM OF POINTS AND
AUTHORITIES; VERIFICATION
Docket No. 17- UNREPORTED OPINION,
granting 8 Motion to Dismiss - Rule 12(b)(1)

3

4

5

FILED
/DATE

PAGE

VOL.

10/4/2020

1

1

07/26/2018

5

1

10/17/2018

324

1

10/17/2018

347

1

08/30/2019

354

1

10/4/2020

364

2

01/10/2020

369

2

01/21/2020

379

2

02/26/2020

396

2

03/02/2020

398

2

03/10/2020

417

2

United States Court of Appeals for the Federal
Circuit Docket#: 20-1100
6
7

8

9
10

11

Docket Sheet for Court of Appeals for the Federal
Circuit Docket#: 20-1100
Docket No. 9 - VERIFIED MOTION TO STRIKE
APPELLEE'S UNVERIFIED CORRECTED
MOTION FOR SUMMARY AFFIRMANCE AND
REQUEST FOR SANCTIONS; MEMORANDUM
OF LAW; DECLARATION__________________
Docket No. 10 - RESPONSE of Appel lee US to the
motion to strike document [9] filed by Appellant
Fareed Sepehry-Fard, 1
motion to sanction [9] filed by Appellant
Docket No.-13 Order
Docket No. 14 - VERIFIED MOTION FOR
RECONSIDERATION OF ECF 13;
MEMORANDUM OF LAW;
DECLARATION
Docket No. 16 - RESPONSE of Appellee US to the
motion to reconsider order [14]

-it-

12

Docket No. 17 - ORDER filed denying [14] motion
to reconsider order

3/12/2020

421

2

13

Docket No. 18 - MOTION for findings of facts and
conclusion of law

03/16/2020

423

2

14

Docket No. 20 - APPELLANT'S VERIFIED
OPPOSITION TO CORPORATE FICTION
DEFENDANT'S MOTION FOR SUMMARY
AFFIRMANCE; MEMORANDUM OF LAW,
DECLARATION
Docket No. 22 - ORDER filed granting [8] the
United States' motion to summarily affirm (ECF
No. 8). The judgment of the United States Court of
Federal Claims is summarily affirmed, motions
(ECF Nos. 18 and 21) are denied.
Docket No. 23 - VERIFIED MOTION FOR
RECONSIDERATION OF VOIDECF 22 ;
MEMORANDUM OF LAW; DECLARATION
Docket No. 24 - SUPPLEMENTAL TO
"VERIFIED MOTION FOR
RECONSIDERATION OF VOID ECF 22 ;
MEMORANDUM OF LAW; DECLARATION"
Docket No. 25 -ORDER filed denying [23] petition
for panel rehearing denying [24] petition for panel
rehearing________________________________

05/26/2020

430

2

7/23/2020

512

2

07/29/2020

518

2

07/31/2020

542

2

09/23/2020

549

2 •

15

16
17

18

-ill-

TABLE OF AUTHORITIES
PAGE NUMBER

CASES
California Cases
Keshtgar v. US. Bank, NA., 2104 Cal.App.
LEXIS 498 (Cal. Ct. App. 2nd Dist.,
Div. Six June 9, 2014)................................

.Passim

Sepehry-Fard v. Aurora Bank CA6 (2016)

Passim

Yvanova v. New Century Mortgage Corp.,
226 Cal:App.4th 495 (2014)........................

Passim

Tenderloin Housing Clinic vs. Sparks (1992) 8 Cal. App.4th 29

,25

Abandonato v. Coldren (1995) 41 Cal.App.4th 264.

25

Federal Cases
Passim

U.S. v. Tweel, 550 F. 2d.297
Taylor v. United States, 113 Fed. Cl. 171, 173 (2013)

30

Bulloch v. United States, 763 F.2d 1115 (1985),

21

Rodriques v. Ray Donovan (U.S. Department of Labor)
769 F. 2d 1344, 1348(1985)............................................

,22

Media Technologies Licensing, LLC v. Upper
Deck Co., 334 F.3d 1366, 1370 (Fed. Cir. 2003) (Cal)

Passim

Sosa v. Fite, 498 F. 2d 114, 116, 117 (5th Cir. 1974)

Passim

-IV-

Supreme Court Cases
10

Schware v. Board ofExaminers, 353 U.S. 238, 239
Henry Schein, Inc. v. Archer & White Sales, Inc.
17-1272, January 8, 2019.....................................

1,30,31,32,33,35

Bivens v. Six Unknown Named Agents, 403 U.S. 388 (1971)

28
,22,30

Yick Wo v. Hopkins, 118 U.S. 356
Davis v. Passman, 442 U.S. 228 (1979)

28

Butz v. Economou, 438 U. S. 478

28

Rent-A-Center, West, Inc. v. Jackson, 561 U. S. 63, 67

31,32

Compton v. State ofAlabama, 214 U.S. 175 (1909)...

31

AT&T Technologies, Inc. v. Communications Workers,
475 U. S. 643, 649-650...................................................

,31,32

STATUES AND RULES
California Statutes
.Passim

California Commercial Code 3308
California Rules of Court

Passim

Rule 8.25 (b) (3)
Statues and Other Authorities
Title 9, US Code

Passim

Cal. Const., art. VI, §10.

Passim

Civil Code of the State of California section 3516

31

Fed. R. Civ. P. Rule 12 (h) (3)...........................................

33

Sims v. Ahrens,211 S.W. 720 (Ark. 1925).......................

10

Kansas P. R. Co. v. Dunmeyer Supreme Court of Kansas

29

-v-

.Passim

Article 1 section 10 of the Constitution.

5,14,15,16,23,26,27

Article III
18 US Code Sections 241 and 242;
42 US Code Sections 1983 and 1985

14

18U.S. Code § 2382

20

18 USC § 1512 et seq.

12

Article IV Section 4

19

18 USC §2385

.20

Title 28 US Code §454

20

Declaration of Independence...........................................

,25

Bureau of Land Management, Public Information Office

.Passim

Land Patent

.Passim

Treaty of Guadalupe Hidalgo
between the United States and the Republic of Mexico

.Passim

Vancouver (City) v. Ward, 2010 SCC 27

.28

Fed Rule. 201 (e) and FRAP 34

26

Civil Code of the State of California section 3516

31

Title 28 US Code Section 1653

34

-vi-

Notice to Agent is Notice to Principal and Notice to Principal is
Notice to Agent.
QUESTION PRESENTED
Petitioner presented a sworn claim under Oath which
makes it a fact under Maxims of Law to the inferior court to
enforce Petitioner's non judicial judgment. The Clerk of inferior
court refused to enforce Petitioner's non judicial judgment and
recoup Petitioner's monies from Respondent citing that the
inferior court was without jurisdiction.
However, enacted law, inter alia, at Title 28 US Code
Section 1653 and controlling case laws, allow Petitioner to
amend the complaint to satisfy any jurisdictional issues, Title 28
US Code Section 1653 ,"to correct defective jurisdictional
allegations", due process at 5th Amendment, Haines v Kerner ",
Id., Platsky v CIA, Id., "to correct defective jurisdictional
allegations", Id.
Moreover, the court of Appeal in Sepehry-Fard expressly
set aside perfection of Petitioner's Arbitration Award, as if it did
not exist, creating an irreconcilable conflict in the published
SCOTUS decision in Henry Schein, Inc., et al. v. Archer & White
-1 -

Sales, Inc. certiorari to the united states court of appeals for the
fifth circuit No. 17-1272. Argued October 29, 2018—Decided
January 8, 2019. The issue presented is:
1) Should this court end the conflict in lower courts by applying
Schein rules nationwide that Arbitration Award is effective upon
its perfection under notary witness sworn affidavit, nonjudicially where the issue of the Arbitration Award as an
operation of law is the pre-cursor to the secondary questions thus
disapproving lower courts' interpretation of non-judicial
Arbitration Award which has significantly damaged Petitioner
economically, physically and emotionally and continues to
damage Petitioner economically, physically and emotionally?
2) Should the courts below refrain from legislation when the law
clearly avails amending the complaint at inter alia, Title 28 US
Code Section 1653 — to satisfy any jurisdictional issues?

-2-

LIST OF PARTIES
All parties appear in the caption page of the case on the
cover page.

-3-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue
to review the judgment below issued by the clerk of the United
States Court of Appeals for the Federal Circuit Court of Claims.
OPINIONS BELOW
The Decision of the highest United States Court of
Appeals for the Federal Circuit Court of Claims denying to
enforce Petitioner's non judicial judgment appears at [2 PT
549-550]1 and is unpublished.
The Decision of the Federal Circuit Court of Claims,
refusing to enforce Petitioner's non judicial judgment
against the Respondent appears at [1 PT 354-363] and is
unpublished.
JURISDICTION
The date on which the UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT decided
Petitioner's case was on July 23, 2020, the petition for
rehearing was denied on September 4,2020. A copy of

i

PT stands for Petitioner's Transcripts concurrently filed, [2 PT 549-550]
means volume 2 of Petitioner's Transcripts pages 549 to 550 inclusive,
etc. etc

-4-

those decisions appears at [1 PT 512-517] and [1 PT 549550], respectively.
The jurisdiction of this court is invoked under 28 U.S.C
§ 1257(a) and 5th amendment right to due process.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Petitioner was unable to obtain an impartial
arbitrator and an impartial forum, without bias, pursuant to the
4th, 5th, 6th, 7th, and 14th Amendment guaranteed rights of the
federal Constitution of 1787, as purviewed by the states for
Complainant, Petitioner and Appellant Fareed -Sepehry-Fard.
Petitioner has been wronged by the void judgment of the
clerk of the lower court in refusing to enforce Petitioner's non
judicial judgment, and as an American who has been wronged, is
due remedy.
The lower court order is void on its face, in fact and in law
due to inter alia, that there is no court in our entire Republic,
except this court of records, that has article III judicial power
since none other has been ordained and established at Article III
Section I of the Constitution of our Republic. The inferior court
clerk refused to perform its administrative duties in enforcing
Petitioner's j udgment.
STATEMENT OF THE CASE
Petitioner, Plaintiff and Appellant Fareed-Sepehry-Fard,
Sui Juris, (or "Petitioner") appealed a decision by the trial court
in refusing to enforce Petitioner's non judicial judgment.
-5-

Petitioner noticed the Defendant and its Agent(s) Co
Parties Principle(s) by writing to Defendant, several times, with
registered and certified mail based on facts on records, that
known international money launderers, ponzi schemers and their
Co Parties Agent(s) Principle(s) [such as but not limited to U.S.
BANK NATIONAL ASSOCIATION, AS TRUSTEE FOR
GREENPOINT MORTGAGE TRUST MORTGAGE PASS­
THROUGH CERTIFICATES, SERIES 2007-AR2;
NATIONSTAR MORTGAGE LLC.; GREENPOINT
MORTGAGE FUNDING, INC.; CAPITAL ONE, N.A.;
SEVERSON & WERSON APC; JOSEPH W. GUZZETTA,
BERNARD J. KORNBERG; ADAM N. BARASCH; MARK
JOSEPH KENNEY; WILLIAM A. ASPINWALL; FINANCIAL
GUARANTY INSURANCE COMPANY; CLEAR RECON
CORP; and Does 1 through 50, collectively, "aforementioned
companies" or "entities"] who are actively, even as of now,
involved in sex trafficking, human trafficking, prostitution, drug
cartel and other unlawfully obtained monies, have attempted to
cover up their unlawful conduct to launder those unlawfully
obtained monies to what seems to be, inter alia, funding terrorist
groups including but not limited to funding ISIS, using
Petitioner's (and other people's homes) as a cover up to launder
those unlawfully obtained monies when not only Petitioner has
never had and had never had any relationships with these entities
that Plaintiff complained about to the Defendant, at any time, but
also based on extensive research, backed up by a declaration of
-6-

an expert witness, based on facts on records, Petitioner found out
that not only Greenpoint Mortgage Funding, Inc. did not exist in
2007 in California since it had surrendered to California
Secretary of State in 2004, but also there were never, at any time,
any financial transactions between Petitioner and any and all of
the companies who have or had made claims against Petitioner
and Petitioner's real property, also based on facts on records,
backed up by the Declaration of Custodian of Records at First
American Title insurance Company ("FATIC"), in 2004, 2007,
2009 and in 2011, [1 PT 11], [1 PT 15], [1 PT 28], [1 PT 257].
Moreover, Petitioner, also found out, and noticed all, that
based on extensive research, and facts on records, the
aforementioned companies and their Co Parties Agent(s)
Principle(s) have sold Petitioner's private property, when they are
and have always been, complete strangers to Petitioner and to
Petitioner's private property, to multiple unknown entities while
receiving tax write offs from Internal Revenue Services ("IRS"),
TARP, Credit Default Swaps (CDSs), Cross Collaritization of
Petitioner's alleged loan based on a non existing alleged loan on
Petitioner's private property, receipt of Yield Spread Premiums
and several other insurance payouts, [1 PT 11].
On or about February 9th, 2018, Petitioner as a realtor on
behalf of Defendant and Internal Revenue Services ("IRS") filed
a Verified and Sworn Qui Tam complaint in USDC, San Jose

-7-

^ Division2, that based on facts on records, fictitious entities and
some of their agents U.S. BANK NATIONAL ASSOCIATION,
AS TRUSTEE FOR GREENPOINT MORTGAGE TRUST
MORTGAGE PASS-THROUGH CERTIFICATES, SERIES
2007-AR2; NATIONSTAR MORTGAGE LLC.;
GREENPOINT MORTGAGE FUNDING, INC.; CAPITAL
ONE, N.A.; SEVERSON & WERSON APC; JOSEPH W.
GUZZETTA, BERNARD J. KORNBERG; ADAM N.
BARASCH; MARK JOSEPH KENNEY; WILLIAM A.
ASPINWALL; FINANCIAL GUARANTY INSURANCE
COMPANY; CLEAR RECON CORP; and Does 1 through 50
(collectively, "aforementioned companies" or "entities") and
their culprits did in fact settled in court with Financial Guaranty
Insurance Company ("FGIC") where the aforementioned
companies have paid back some of the monies they obtained
from FGIC without paying back the monies that they received
from IRS and to the Defendant as well as without paying back
2 Case No. 5:18-cv-00862-EJD, INTERNAL REVENUE
SERVICE, The United States of America
ex rel. Qui Tam Plaintiff/Realtor Fareed Sepehry-Fard®, Sui
Juris, v. U.S. BANK NATIONAL ASSOCIATION, AS
TRUSTEE FOR GREENPOINT MORTGAGE TRUST
MORTGAGE PASS-THROUGH CERTIFICATES, SERIES
2007-AR2; NATIONSTAR MORTGAGE LLC.;
GREENPOINT MORTGAGE FUNDING, INC.; CAPITAL
ONE, N.A.; SEVERSON & WERSON APC; JOSEPH W.
GUZZETTA, BERNARD J. KORNBERG; ADAM N.
BARASCH; MARK JOSEPH KENNEY; WILLIAM A.
ASPINWALL; FINANCIAL GUARANTY INSURANCE
COMPANY; CLEAR RECON CORP; and Does 1 through 50
-8-

any monies to Petitioner, without any accounting and
accountability, when based on facts on records, there were never
ever any financial transaction between Petitioner and the
aforementioned companies at any time, whatsoever, [1 PT 12].
The judge in this case, dismissed Petitioner's verified
claim, and stated on records that since Plaintiff is not an
attorney, he can not file a Qui Tam Complaint setting aside,
unlawfully, that there is nothing in False Claims Act that
implicitly or explicitly authorizes such an utterly erroneous so
called conclusion of law, [1 PT 12].
Since when British Accreditation Regency ("BAR" or
"British") agents such as attorneys have more rights that one of
"We the People"? Petitioner require proof of “legislative
authority or law” (not color of law) that created lawyers, the
BAR association, and actual licensing. Who gave THEM
authority to walk into a courtroom? And what authority does it
give them in law? Show the legislative enacted law that give
them any authority (they have none) or the order of the judge is
void as a matter of law.
Attorneys have no legislative authority to be there. Until
the attorneys prove the legislative authority and prove the BAR
association actually issues a “license” under congressional
enacted authority (the BAR is a mere union), before proceeding
with their claims, [1 PT 12].
Accordingly, the order by this judge regarding Petitioner's
ability to sue aforementioned companies on behalf of himself,
-9-

the Defendant and IRS is void as a matter of law since there is
nothing in False Claims Act ("FCA") that corroborates and
substantiates the judge's erroneous and void decision , and
Petitioner has been entitled to whistle blower program.
The aforementioned companies and their agents, inter alia,
include but are not limited to Greenpoint Mortgage Funding,
Inc.; Nationstar Mortgage LLC; Capital One, NA; Clear Recon
Corp.; US Bank US BANK NATIONAL ASSOCIATION, as
Trustee for Greenpoint Mortgage Pass Through Certificates,
Series 2007-AR2; Aurora Bank FSB, FINANCIAL
GUARANTY INSURANCE COMPANY and their agent(s) Co
Parties Principle(s).
To corroborate on these facts presented to Defendant,
verified under the penalty of perjury under the laws of the United
States of America and State of California, Petitioner send to the
Defendant and its Co Parties Agent(s) Principle(s) numerous
letters by certified and registered mail and demanded that the
Defendant conduct its official duties and stop the unlawful
conduct of the aforementioned companies and their agent(s) Co
Parties Principle(s) in their literal theft of Petitioner's assets and
monies, to no avail, [1 PT 327], [1 PT 329], [1 PT 331], [1 PT
335], [1 PT 350], [1 PT 371], [1 PT 374].

3 The practice of Law CANNOT be licensed by any state/State.
(Schware v. Board of Examiners, 353 U.S. 238,239), The
practice of Law is AN OCCUPATION OF COMMON RIGHT!
(Sims v. Aherns, 271 S.W. 720 (1925)
-10-

Defendant did nothing to stop these literally criminal
conduct and grand theft by the aforementioned companies and in
fact aided and abetted aforementioned companies to continue to
steal from Petitioner and to maliciously, either on ignorance on
purpose or both, caused harm to Petitioner, Petitioner has
become disabled due to Defendant's failure to perform its official
duties severely damaging Petitioner emotionally, economically
and physically, [1 PT 13], [1 PT 27],
Petitioner as a direct and proximate result of Defendant's
failure to act has become disabled and in is constant pain even
when he uses the prescribed medications by his physician, to
ease his constant pain, caused by aforementioned companies and
Defendant's failure to prevent harm to Petitioner, when
Defendant has been on repeated notice by the plaintiff, [1 PT
14], [1 PT 22]. As a direct and proximate result of Defendant
and its Agent(s) Co Parties Principle(s) failure to prevent harm to
Petitioner at inter alia, 28 US Code §1346, Petitioner has been
economically, emotionally and physically harmed by the
aforementioned companies and by the Defendant's failure to act.
The purpose of these pain killers are, to help Petitioner to
cope with the constant pain that he is going through as a result of
the aforementioned companies misconduct, Id., and Defendant's
failure to prevent harm to Petitioner, when on numerous notices.
Those pain killers have been prescribed by several LICENSED
STATE OF CALIFORNIA PHYSICIANS, [1 PT 228], [1 PT
236], [1 PT 278].
-11 -

The allegations above inclusive have evidentiary support
under open public records and are likely to reach proof of fact
qualifying as Mandatory Judicial Notice under Federal Rule of
Evidence 201 and controlling of presumptions under Rule 301 of
Evidence Rules.
Any objections to said standings and capacities will be
noticed to Plaintiff forthwith so Petitioner can respond. And,
that without such notice and objection, Petitioner's capacities and
standings are fully recognized nunc pro tunc.
Thereby, Petitioner require protection by federal actions
enforcing the laws as written while reporting wrongs of both the
state and the federal constitutions and laws and rules to this
Court as Petitioner is now witness in this federal action (18 USC
§ 1512 et. seq.).
The following, in full, and sometimes in part, has been,
several times communicated to Defendant and or its Co Parties
Agent(s) Principle(s) by registered and certified mail. However,
Defendant failed its official duties under the Constitution of the
United States of America in protecting Petitioner from being
harmed, economically, emotionally and physically by
aforementioned companies which are international money
launderers and ponzi schemers, which are also known to
unlawfully obtain and launder drug cartel, human trafficking,
minor prostitution, sex trafficking and other unlawfully obtained
monies, dressed falsely as alleged mortgage servicers, trustee of
a closed trust that had shut down operations more than 10 years
- 12-

ago and whatever else one wants to call these sham entities, [1
PT 14], [1 PT 15], [1 PT 18], [1 PT 34], [1 PT 170], [1 PT 210].
It is against the law for Defendant, for example, to allow a
trustee of a closed trust that had shut down operations more than
10 years ago, to wit: U.S. Bank National Association, as Trustee
for Greenpoint Mortgage Trust Mortgage Pass-Through
Certificates, Series 2007- AR2 to falsely and fraudulently claim
that the trustee for a closed trust foreclosed on Petitioner's private
land when not only based on facts on records, the trustee for a
closed trust is complete stranger to Petitioner and to Petitioner's
home and there were never ever any financial transaction
between Petitioner and any and all of the companies who falsely
have fabricated false and fraudulent papers in County Recorder
to give an illusion of a privity between Petitioner and the
aforementioned companies, but also a closed and defunct trust
can not authorize a derivative action (i.e. a foreclosure, THINK
ABOUT IT!), [1 PT 15].
Additionally, based on proof positive on records, the
attorneys who claimed and still claim that they were and are
representing the ghost (US Bank US BANK NATIONAL
ASSOCIATION, as Trustee for Greenpoint Mortgage Pass
Through Certificates, Series 2007-AR2) do not have and never
had any power of attorney from neither the ghost nor from US
Bank, [1 PT 436], [1 PT 533].
In spite of these facts and repeated notices to Defendant,
Defendant did nothing and in fact encouraged these companies to
-13 -

continue harming Petitioner by its silence since, it appears that
the Defendant too is one of the culprits who has and is still
benefiting from Petitioner's deprivation of rights under the color
of law actionable at 18 US Code Sections 241 and 242 and Title
42 US Code Sections 1983 and 1985, [1 PT 334], [1 PT 374].
The court of appeal upheld the void judgment. SepehryFardv. THE UNITED STATES, opinion at [1 PT 396-397], [1 PT
421 -422], [1 PT 512-517].
In denying to enforce Petitioner's non judicial judgment at
[1 PT 5-33], the inferior court clerk erroneously opined that
Petitioner should seek to enforce his non judicial judgment
elsewhere without identifying those venues since there are none
other, [ 1 PT 512-516],
Petitioner, several times, corroboratively elucidated to the
inferior appeal court clerk that there is no United States District
Court in all of our Republic that has judicial power at Article III
Section I of the Constitution, Id. since none has been ordained
and established by congress even though they have falsely been
identified as such.
Petitioner explained to the inferior court clerk, in writing,
that People can not obtain due process since these courts are not
capable to grant relief to people, to wit: they lack judicial power
at Article III Section I of the Constitution. However, these so
called courts have been faking having such power; they only
serve the interest of the government and not the people, Id.

- 14-

Moreover, Petitioner explained, California state
establishments falsely labeled as courts, are in fact and in law
private tribunals which have unknown Employer Identification
Number ("EIN"), and have invested in bogus Asset Backed
Securities ("ABS") and Mortgage Backed Securities ("MBS")
that are not backed by anything. Those are not backed by
anything since the false instruments, whether filed in Santa Clara
County recorder or not, recite transactions that never ever
happened in fact and in law to wit: for any financial transaction
to get consummated, there must have been an offer, when there
were none; acceptance of that offer, where there were none; and
last but not least, for value consideration or payment, when there
were never ever any, whatsoever, see Uniform Commercial Code
("UCC"). Moreover, these so called state courts are also not
ordained and established by congress at Article III Section I of
the Constitution, therefore, they too have no judicial power, Id.
As clearly corroborated in Petitioner's papers, the false and
fabricated paper trails, whether or not filed in Santa Clara
, County recorder and or securities and exchange commission et.
al., are holographic images of empty bags with nothing in them,
facilitated, organized and managed at the highest levels of
government with most if not all USDC, state, bankruptcy and
even appellate court judges' direct and or indirect involvement in
laundering monies for sex and human traffickers and pedophiles,
laundering 1000s of trillions of dollars through variety of ruses to
wit: Collaterized Debt Obligations ("CDOs"), Credit Default
-1$-

Swaps ("CDSs"), Yield Spread Premiums, TARP, and all other
insurance payouts, literally bankrupting every single man,
women and child in the entire world as there is less than $200T
of money supply 4 in the entire planet.
Public Servants, Petitioner explained, to wit: court
administrators labeled as "judges" even though they have no
judicial power at Article III Section I of the Constitution, in
majority of the cases, disallow discovery at all costs, as to proof
of the value paid for the fabricated instruments by the individuals
and their culprits subject to the arrest warrants in the complaint,
in order to falsely portray consummation of financial transactions
that never consummated.
From time to time, very few "judges" in the entire country,
based on ignorance or simply because they can not be bought or
both, allow discovery, Id., and then, the homeowner, at the 11 th
hour, is offered a settlement from the racketeers or pretender
lenders that he or she can not refuse, BUT, the criminal racket
continues against other homeowners while the Defendant is
instrumental in making sure these criminal rackets in piracy and
grand theft of People's assets continues.
Our President, Mr. Trump has been working hard to drain
the swamp and Restore the Republic with numerous patriots
helping him, Petitioner included.
https://nationalfile.com/watch-attornev-general-barr-takes4 Source: https://www.marketwatch.com/story/this-is-how-muchmoney-exists-in-the-entire-world-in-one-chart-2015-12-18
-16-

on-human-trafficking-in-child-welfare-system/

“In the

modern age, the level of evil is unbelievable,” said President
Trump, who has dramatically increased human trafficking
arrests.
As the justices of this court of records may be aware,
every case whether criminal or civil or even probate, is assigned
a CUSIP 5 number and traded on wall street among various deep
state operatives who launder monies obtained from various
unlawful activities including but not limited to kidnapping over
800,000 children on an annual basis in this country alone, and
selling their organs and committing all kinds of other heinous
crimes on those children6 using various other conduits and ruses
5 CUSIP refers to the Committee on Uniform Securities
Identification Procedures which oversees the entire CUSIP
system. The CUSIP number is a unique identification number
assigned to all stocks and registered bonds in the United
States and Canada, and it is used to create a concrete distinction
between securities that are traded on public markets. Foreign
securities have a similar number called the CINS number.
Source: https://www.investopedia.eom/terms/c/cusipnumber.asp
6 The individuals subject to issued arrest warrants who are inter
alia, attorneys at Severson & Werson [Guzzetta ("Guzz"),
Aspinwall, Komberg, Barasch and others] and their culprits
routinely use defunct and closed entities such as but not limited
to U.S. BANK NATIONAL ASSOCIATION, AS TRUSTEE
FOR GREENPOINT MORTGAGE TRUST MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2007-AR2,
without any power of attorney on records and when specifically
demanded of them, through well in excess of 12 Writs, failed to
return the Writs, and are involved in laundering illegally
obtained monies from inter alia, pedophile rings, human
trafficking, sex trafficking, drug cartels and other illegally
- 17-

obtained monies. These individuals use part of these illegally
obtained monies, to bribe corrupt state and federal court judges,
to aid and abet them and their culprits such as Nationstar
Mortgage LLC. ("Nationstar") to accomplish laundering monies
using conduits and guises such as, the homeowner, the home and
the alleged so called "loan". That is why they continue to
represent closed and defunct entities that, in my case, has shut
down operations in excess of 11 years. This is precisely what
other criminals like these individuals and their culprits did
during wars in the south east Asia, see and hear the
statements made by the ex head of FBI in Los Angeles where
illegal drugs were imported into this country using the body
cavities of dead GIs. Theodore L. Gunderson ("Gunderson")
was an American Federal Bureau of Investigation Special Agent
in charge and head of the Los Angeles FBI. According to his son,
he worked the case of Marilyn Monroe and the John F. Kennedy
cases (see Retired HEAD OF FBI Ted Gunderson Tells ALL
Illuminati Satanism Pedophile Rings
https://www.youtube.com/watch?v=RemeFrbS-OY. According
to FBI and Gunderson, every hour, 83 children are missing
from this county, over 700,000 children per year, also see
another confirmation of this fact, which is obtained from
ABS news, "According to the National Centerfor Missing and
Exploited Children, roughly 800,000 children are reported
missing each year in the United States -- that's roughly 2,000
per day.", Source: https://abcnews.go.com/US/missing-childrenamericaunsolved-cases/story?id=T 9126967
The justices and the Clerk of this court of records are
demanded to listen, in full, to the statements made by
Gunderson and do an independent inquiry, using alternative
media and not the FAKE NEWS, to determine what these
criminals and their culprits such as the individuals subject to
the arrest warrants, Id., do to the missing 800,000 missing
children, on an annual basis, most of whom are NEVER
FOUND.
Therefore, the individuals subject to the arrest warrants, Id., (the
British agents working at Severson) that state court and USDC
administrators routinely shelter and shield, and fail their official
-18-

inter alia : Credit Default Swaps (CDSs), Collateralized Debt
Obligation (CDOs), Yield Spread Premiums, and other ruses
such as but not limited to obtaining federal and state grants
which are obtained and distributed among members of these
racketeering club members.
Respondent is obligated to guarantee a Republican form of
government to Petitioner, to wit: Article IV Section 4 which
consists of one (1) clause: (1) Provided that the Federal
Government shall GUARANTEE a Republican form of
government to all States; providing courts of justice under the
Law of the Land, a/k/a Common Law and that is what Appellant
demanded.
Respondent repeatedly failed its obligations, Id. to
Petitioner at inter alia Article IV Section 4 while Respondent has
been instrumental in literally stealing 10s of millions of dollars
of Petitioner's monies.
Petitioner has been harmed by the Respondent and
demands this court to order Respondent to return Petitioner's
stolen monies by the Respondent and its culprits, Id. as well as
duty to perform, authorized by law, Id., are using corrupt judges
and courts, by bribing these corrupt so called judges, by some of
the monies that these individuals subject to the arrest warrants,
Id., and their culprits obtained and obtain from, inter alia,
pedophile rings, to launder illegally obtained monies from
satanic acts, inter alia, committed on nearly 800,000 children, on
an annual basis, that go missing in our country using closed,
DEAD and defunct entities, Id, (just like other criminals used
dead GIs' body cavities to import heroin and other illegal drugs
to our country), SEE THE PARALLEL HERE!!
-19-

pay for Petitioner's damages caused as the direct and proximate
results of Respondent's misconduct as fully memorialized in
Petitioner's instruments presented to this court of records, see
UCC - Presentment.
Moreover, the Respondent, Petitioner explained to the
clerk of the inferior court, has been attempting to destroy and
abolish our Republican form of government in violation of the
law and in the process further economically damaged Petitioner,
Id., to wit: Pursuant to 18 USC $2385 - Whoever organizes or
helps or attempts to organize any society, group, or assembly of
persons who teach, advocate, or encourage the overthrow or
destruction of the Republic a/k/a Law of the Land by force or
violence; Shall be fined under this title or imprisoned not more
than twenty years, or both. Also see 18 U.S. Code § 2382 Misprision of treason," Whoever, owing allegiance to the United
States and having knowledge of the commission of any treason
against them, conceals and does not, as soon as may be, disclose
and make known the same to the President or to some judge of
the United States, or to the governor or to some judge or justice
ofa particular State, is guilty of misprision of treason and shall
be fined under this title or imprisoned not more than seven years,
or both." and pursuant to Title 28 US Code §454 — Practice of
law by justices and judges— Any justice or judge appointed
under the authority of the United States who engages in the
practice of law is guilty of a high misdemeanor.

-20-

These and other takings of Petitioner's monies and
properties by the Respondent and its culprits, has severely
economically damaged Petitioner, Petitioner is due remedy as an
American who has been wronged by the Respondent.
Respondent, based on numerous controlling case laws,
admitted to treason, at inter alia, Bulloch v. United States, 763
F.2d 1115 (1985) where the court stated "Fraud upon the court is
fraud which is directed to the judicial machinery itself and is not
fraud between the parties or fraudulent documents, false
statements or perjury....It is where the court or a member is
corrupted or influenced or influence is attempted or where the
judge has not performed his judicial function, thus where the
impartial functions of the court have been directly corrupted."
further damaging Petitioner economically, physically and
emotionally.
Finally, Respondent has, in addition, stolen 10s of millions
of dollars of Petitioner's monies from Petitioner's trust FAREED
SEPEHRY-FARD®, Petitioner demands all of it back and the
court is obligated to order the Respondent to pay back the
monies in Petitioner's trust which does not belong to Respondent,
it belongs to Petitioner.
Petitioner then moved the inferior court, following denial
of Petitioner's demand for relief, for findings of facts and
conclusion of law [1 PT 423] explaining to the inferior court
clerk, that inter alia, the order denying to enforce Petitioner's non
judicial judgment are fatally void and if the court would not find
-21 -

the facts and conclusion of the law, the inferior court would
admit that there are no facts NOR any law in failing to enforce
Petitioner's non judicial judgment, [1 PT 425].
In Petitioner's motion for reconsideration, Petitioner
explained to the clerk of the inferior court, that all laws
repugnant to the constitution are null and void, Marbury v.
Madison [1 PT 523]; that Petitioner never consents nor
consented to aNisi Prius Court [1 PT 399], [1 PT 519]; that all
codes, rules, and regulations are unconstitutional and lacking due
process, Rodriques v. Ray Donavan (U.S. Department of Labor)
769 F. 2d 1344, 1348 (1985); that all codes, rules, and
regulations are for government authorities only, [not Petitioner]
in accordance with God's laws, Rodriques v. Ray Donavan, Id.;
that pursuant to California Government Code 54950, "... The
people of this State do not yield their sovereignty to the agencies
which serve them. The people, in delegating authority, do not
give their public servants the right to decide what is good for the
people to know and what is not", [1 PT 523].
In spite of all these authorities and others, inter alia, Yick
Wo v. Hopkins, 118 U.S. 356. A sovereign is the source of law.
"Sovereignty itself is, of course, not subject to law, for it is the
author and source of law", Yick Wo v. Hopkins, 118 U.S. 356, [1
PT 523], [1 PT 543], the inferior court administrator still failed
its official duties to furnish long overdue remedy to Petitioner,
did not find the facts NOR any law in refusing to administrator
its official duties, failed to abide by his oath of office, and in the
-22-

process further harmed Petitioner economically, physically and
emotionally.
This summary of facts is based on sworn statements of
Petitioner made in the Petition to enforce his judgment.
A.

What the Petition to Enforce Petitioner’s Non
Judicial Judgment Asked the United States
Court of Appeals for the Federal Circuit to Do?

Petitioner asked the United States Court of Appeals for the
Federal Circuit to enforce Petitioner's non judicial judgment at [1
PT 5-324],
Petitioner presented to the lower courts in addition to fact
that the order by the inferior court was and is void and of no
force and effect, it must additionally be reversed because it was
based on the predicate presumption that there are other courts
such as United States District Court or the County Courts to
enforce Petitioner's non judicial judgment which would preclude
the Court of Claims from jurisdiction to act, to wit: enforce
Petitioner's non judicial judgment.
However, as explained at length, these so called courts not
only do not have the jurisdiction to act since they have no
judicial power at Article III Section I of the Constitution, but also
they have vested interests in systematically and systemically
denying Petitioner's [and 10s of millions of other men and
women of our Republic] inalienable rights to due process at
every turn and hence the only remedy Petitioner could seek,
would be in the Federal Court of Claims.
-23 -

Petitioner stated under oath that the false claimants have
been committing acts of piracy and grand theft of Petitioner's
home, while being aided and abetted by the Defendant, when
there were never ever any relationships of any kind among
Petitioner and any and all the false claimants, whoever they may
be, since the named claimant, to wit: U.S. BANK NATIONAL
ASSOCIATION, AS TRUSTEE FOR GREENPOINT
MORTGAGE TRUST MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2007-AR2 ("the ghost") never existed
and does not exist and the attorneys have admitted that they have
no power of attorney neither from the ghost nor from U.S.
BANK NATIONAL ASSOCIATION nor from any damaged
party, party of interest and holder in due course of the alleged
debt, alleged note [which is forged] and alleged mortgage.
Moreover, attorneys admitted on records that they have no
power of attorney from any damaged party, [1 PT 436], [1 PT
533].
B.

Trial Court Proceedings

Based on Petitioner's judgment and arbitration award, non
- judicially, Id., Petitioner sued Respondents. Petitioner filed his
claim on July 26, 2018, (1 PT 6.) The Defendant filed for a
motion to dismiss based on jurisdictional issues. Petitioner, in his
verified claim against the fictitious Defendant alleged that
Respondent has repeatedly failed its official duties and had
refused to pay the monies it admitted to owe Petitioner, that
Petitioner asked the lower court administrator to enforce
-24-

Petitioner's non judicial judgment and recoup Petitioner's monies
from the Respondent.
C.

The Court of Appeal Affirms.

Petitioner appealed. On January 10, 2020, Petitioner
moved the court to strike Respondent's brief in its entirety which
were filed during Petitioner's notice of unavailability due to
Petitioner's medical conditions caused by the Respondent and its
culprits and requested sanctions against the Respondent based on
controlling case laws at inter alia, Tenderloin Housing Clinic vs.
Sparks (1992) 8 Cal. App.4th 299; and Abandonato v. Coldren
(1995) 41 Cal.App.4th 264, where Abandonato provides for the
availability of sanctions to pro per litigants when notice of
unavailability is violated [1 PT 369-372]. Petitioner reminded
that Petitioner, for close to a decade, had been railroaded by
various so called "courts" that the Declaration of Independence
anticipated such tyranny by tyrants and availed almost two
centuries ago, remedies for the people through the Declaration of
Independence, to wit: A Transcription "... But when a long train
of abuses and usurpations, pursuing invariably the same Object
evinces a design to reduce them under absolute Despotism, it is
their right, it is their duty, to throw off such Government, and
to provide new Guards for their future security...", emphasis
added, [1 PT 374]. Petitioner later on, supplemented the inferior
court's mandatory duties owed to Petitioner at inter alia, [1 PT
386-394]. In spite of these and other lawful notices and
demands, the Clerk of Court denied that motion without any
-25 -

lawful opinion on February 26, 2020 [1 PT 396-397]. Petitioner
then filed for a motion for reconsideration, [1 PT 398] on March
2, 2020. Again, the clerk of court of records without any opinion
denied that motion on March 12, 2020. [1 PT 421-422]
Petitioner on March 16, 2020, filed a motion for findings
of facts and conclusion of law reminding the Clerk of Court of
Records, if the Clerk does not find the facts NOR any law, then
the Clerk of Court of Records would admit that there are no facts
nor any law in dismissing the action which would make, again,
any and all adverse decisions to Petitioner void and not voidable,
[1 PT 425]. Additionally, Petitioner had demanded oral
arguments to help the Clerk of Court of Records with availing
due process to Petitioner. On May 26, 2020 Petitioner verifiably
objected to corporate fiction Respondent's motion for summary
affirmance, [1 PT 430] and again demanded oral arguments at
inter alia, Fed Rule. 201 (e) and FRAP 34, [1 PT 431].
Petitioner, again, reminded all, that Petitioner
corroboratively elucidated the facts and filed those facts in lower
courts of records, that inter alia, there are no USDC Article III
courts since none has been ordained and established by congress
even though they have falsely been identified as such. That
People can not obtain due process since these courts are not
capable to grant relief to people, to wit: they lack judicial power
at Article HI Section I of the Constitution. However, these so
called courts have been faking having such power, [1 PT 432].
That USDC are administrative court without judicial power
-26-

which has the interests of government, and can not be, as a
matter of law and fact, an independent adjudicator of facts. These
so called courts only serve the interest of the government and not
the people, Id. Disguised administrative courts are being used to
subvert freedom. The federal district courts, Petitioner explained
to the lower court, are administrative, legislative, non-judicial
courts that are an extension of any administrative harassment
caused by persons claiming to represent the national government.
Individuals appointed to United States district courts are
permitted to believe that they are Article III judges because they
are appointed for life. These individuals are actually urged by the
other two branches of federal government to act like Article
III judges. Injured man, through significant legal research, found
out that none of the United States District Courts have any
Article III judicial power and that is why People can not obtain
justice. Moreover, California state establishments falsely labeled
as courts, are in fact and in law private tribunals which have
unknown Employer Identification Number ("EIN"), and have
invested in bogus Asset Backed Securities ("ABS") and
Mortgage Backed Securities ("MBS") that are not backed by
anything. On July 23, 2020 the court of appeal affirmed in an
unpublished opinion, [1 PT 512].
D.

Post-opinion proceedings.

Since there were many erroneous facts and law in the void
decision, Id., and or otherwise substantial material and law
presented to the court, which were, based on ignorance, on
-27-

purpose or both, completely overlooked, Petitioner moved the
inferior court for vacating the void order at ECF 13-motion for
reconsideration, [1 PT 518].
Petitioner once again explained to the inferior court, that
inter alia, that there are no other courts that can avail due process
and relief to Petitioner, Id., that Petitioner does not understand
[or stand under] Nisi Prius courts but a Common Law Court of
Records, to wit: that the Clerk of Court of Records, in his void
decision at ECF 13, was completely silent as to Petitioner's
references to the Respondent's own color of law and subsequent
economic damages to Petitioner at Tucker act, to wit: at inter
alia, Bivens v. Six Unknown Named Agents, 403 U.S. 388 (1971),
which was a case in which the US Supreme Court ruled that an
implied cause of action existed for an individual whose Fourth
Amendment freedom from unreasonable search and seizures had
been violated by the Federal Bureau of Narcotics. The victim of
such a deprivation could sue for the violation of the Fourth
Amendment itself despite the lack of any federal statute
authorizing such a suit. The existence of a remedy for the
violation was implied by the importance of the right violated.
Also see Davis v. Passman, 442 U.S. 228 (1979) where the court
held: A cause of action and damages remedy can be implied
directly under the Constitution when the Due Process Clause of
the Fifth Amendment is violated. Cf Bivens v. Six Unknown Fed.
Narcotics Agents, 403 U. S. 388; Butz v. Economou, 438 U. S.
478. Pp., also see Vancouver (City) v. Ward, 2010 SCC 27,
-28-

authorizing money damages for breach of the Canadian Charter
of Rights and Freedoms as it applies to Article IV Section IV of
the Constitution of this Republic to wit: the right to a common
law trial by juiy and the Respondent's repeated refusal to avail to
Petitioner, Petitioner's inalienable right to a common law trial by
jury at 7th Amendment and 5th amendment right to due process,
Id.
Petitioner also reminded the inferior court clerk to take
notice of Petitioner's Mandatory Judicial Notice of Birth
Certificate Fraud; Clausula Rebus SIC Stantibus by kate of kaea
Applicable to Petitioner. That Respondent and its culprits have
been very busy taking monies and properties from Petitioner,
without Petitioner's consent. Those monies and properties
unlawfully taken from Petitioner, lawfully belongs to Petitioner.
Petitioner demands his monies and properties back
from Respondent and its culprits and this court of records must
order the Respondent and its culprits to return Petitioner's stolen
and takings of monies and properties by the Respondent, Id.
Petitioner explained to the inferior court of records' clerk,
that the lower court seems to be the only venue that Petitioner
can and should obtain his remedy from the corporate fiction, the
UNITED STATES, to wit: "The words, "by due course of law,"
are synonymous with "due process of law," or, "the law of the
land;" Emphasis added, Kansas P. R. Co. v. Dunmeyer Supreme
Court of Kansas, if law of the land is not furnished to Petitioner,
and the law of the land has not been furnished to Petitioner, then
-29-

Petitioner has been deprived of his 5th amendment right to due
process and takings of property by the Respondent and
Respondent's culprits, [1 PT 528].
Additionally, On July 31, 2020, Petitioner filed a
supplemental for his Motion for Reconsideration of void ECF 13,
explaining to the Clerk that inter alia, there is nothing that
supports Clerk's conclusion of law at Taylor v. United States,
113 Fed. Cl. 171, 173 (2013) - that the Constitution is not a
contract with undersigned when based on common sense as well
as supporting law, it is, no other evidence exists to the contrary.
Petitioner asked the Clerk, should the Clerk disagree with
Petitioner's statement, to please show Petitioner where this
reference -Taylor, Id. supports Clerk's conclusion, to wit: it is
rejected that the Constitution is not a contract? since Petitioner
could not find it. Furthermore, Petitioner presented to the Clerk
of Court of Records, that even if the Clerk could prove his
[erroneous] contention at Taylor, Id., and Clerk could not, still
that is irrelevant, to wit: Petitioner's authority as a sovereign
trumps any and all color of law and decisions, to wit:
"Sovereignty itself is, of course, not subject to law, for it is the
author and source of law", Yick Wo v. Hopkins, 118 U.S. 356.
ARGUMENT
A.

This Court should grant review to end confusion
in the lower courts over the unanimous decision
in Henry Schein, Inc., et al. v. Archer & White
Sales, Inc. that arbitration award is not a cause
of action but a fact.
-30-

The unanimous supreme court recent decision, Henry
Schein, Inc., et al. v. Archer & White Sales, Inc. certiorari to the
united states court of appeals for the fifth circuit No. 17-1272.
Argued October 29, 2018—Decided January 8,2019, where
Justice Kavanaugh in a unanimous Supreme Court already stated
the obvious, " The “wholly groundless” exception to
arbitrability is inconsistent with the Federal Arbitration Act and
this Court’s precedent. Under the Act, arbitration is a matter of
contract, and courts must enforce arbitration contracts according
to their terms. Rent-A-Center, West, Inc. v. Jackson, 561 U. S.
63, 67. The parties to such a contract may agree to have an
arbitrator decide not only the merits of a particular dispute, but
also “ ‘gateway’ questions of ‘arbitrability.’ ” Id., at 68-69.
Therefore,

a court may not override the contract, even if

the court thinks that the arbitrability claim is wholly groundless.
That conclusion follows also from this Court’s precedent. See
AT&T Technologies, Inc. v. Communications Workers, 475 U. S.
643, 649-650.", emphasis added., also see Compton v. State of
Alabama, 214 U.S. 175 (1909) and California Maxims of
Jurisprudence, the Civil Code of the State of California section
3516 which states" Acquiescence in error takes away the right of
objecting to it." which is substantive law and not subject to be
changed, amended, modified or altered by any procedural rules,
as a matter of law, State of California C.C.P. 3516, Id.
Petitioner already has his arbitration award, Id.

-31 -

By definition, any lawsuit filed by the Petitioner to
ENFORCE the arbitration award —i.e., to get his monies owed to
him admitted by the Respondent and recoupment of his stolen
monies from the Respondent — is NOT an action to
EFFECTUATE the arbitration award. The intent of the statute is
crystal clear — that the Petitioner doesn't need to be a lawyer or
financier to recoup his monies from the Respondent. It was
finalized by the arbitration award. No particular form is
required. Moreover, the question of "disputed" and "undisputed"
arbitration award was addressed squarely by the SCOTUS
unanimous decision in Henry Schein, Inc., et al. v. Archer &
White Sales, Inc. court in its ruling by stating:

ffff

The “wholly

groundless” exception to arbitrability is inconsistent with the
Federal Arbitration Act and this Court’s precedent. Under the
Act, arbitration is a matter of contract, and courts must enforce
arbitration contracts according to their terms. Rent-A-Center,
West, Inc. v. Jackson, 561 U. S. 63, 67. The parties to such a
contract may agree to have an arbitrator decide not only the
merits of a particular dispute, but also “ ‘gateway’ questions of
‘arbitrability.’ "Id., at 68-69. Therefore,

a court may not

override the contract, even if the court thinks that the arbitrability
claim is wholly groundless. That conclusion follows also from
this Court’s precedent. See AT&T Technologies, Inc. v.
Communications Workers, 475 U. S. 643, 649-650."
The big mistake is that people, judges and lawyers
continue to view Petitioner's arbitration award as a pending claim
-32-

— despite the US Supreme Court stating that courts cannot
interpret a statute without finding ambiguity (and being right
about that) they don't have power to change, add, amend or
modify the express wording of the statute.
This situation is a compelling case for review of a court of
appeal decision to "secure uniformity of decision" particularly
when the void order was issued by the clerk. Without guidance
from this court, People of this Republic will enjoy success or
failure depending on where they bring their actions.
Although the fictitious Respondent may have a significant
interest in finality, consumers have a countervailing interest in
avoiding being railroaded by courts across this Republic.
Henry Schein, Inc, Id. revealed the majority of federal, state and
bankruptcy courts had "misinterpreted the will of the enacting
Congress," in allocating to People the burden to go to court to
enforce their statutory arbitration award at Federal Arbitration
Act. The Briefs filed by Respondents in courts below are barred
under the doctrine of lack of subject-matter jurisdiction by
operation of Federal Law. There are no exceptions under the
statute, id. Fed. R. Civ. P. Rule 12 (h) (3), Lack of SubjectMatter Jurisdiction.
B.

Title 28 US Code Section 1653 Violation

Petitioner explained to the inferior Court of Records Clerk
at [1 PT 535], that inter alia, the Court administrators are and
were obligated, based on enacted law at, inter alia, Title 28 US
Code Section 1653 and controlling case laws, to allow Injured
-33 -

man to amend the complaint to satisfy any jurisdictional issues,
Title 28 US Code Section 1653 ,"to correct defective
jurisdictional allegations", due process at 5 Amendment, Haines
v Kerner ", Id., Platsky v CIA, Id., "to correct defective
jurisdictional allegations", Id.
REASONS FOR GRANTING PETITION
The core question of the arbitration award is answered
affirmatively by the non-judicial operation of the law that
governs the statue. The secondary consequences of the same
operation of law produces the logical and only answer to the
questions of arbitration jurisdiction in the Lower Court and its
reliance upon void and deficient orders without, inter alia,
findings of facts and conclusion of law.
Respondents do not have a "dispute" provision to rely
upon under the statue. Respondents, and all parties who have
taken an oath were absolutely mandated by law to defend
Petitioner's constitutional rights against all enemies, foreign and
domestic by operation of law.
Petitioner's jurisdictional challenge was founded strictly
and specifically upon the operation of his arbitration award and
the lack of standing of Respondents to file for a motion to
dismiss or other ruses. Note Petitioner's appellate "Issue
Presented" in its chronological order where the issue of the
arbitration award as an operation of law is the pre-cursor to the
-34-

secondary questions in addition to the void order issued by a
clerk of court below.
The court below views Petitioner's arbitration award,
endorsed by all three branches of the government to wit: The
President, the congress and the SCOTUS unanimous decision in
Henry Schein, Inc, Id. that arbitration award is effective upon its
finality under notary witness and sworn statement and nothing
more is needed from the Petitioner, as a cause of action and a
pending claim which, according to the court below, was not in
the jurisdiction to avail remedy to Petitioner as an American who
has been wronged by the Respondent and its Co Parties Agent(s)
Principle(s).
However, arbitration under Federal Arbitration Act is not a
cause of action, it is non-judicial mechanism of law that is
triggered by, and is effective upon its perfection under notary
witness in sworn statement made by Petitioner.
Because Sepehry-Fard v. UNITED STATES et al.,
unpublished opinion as well as other courts of appeal and lower
courts have led to disregard established Federal law and clear
unambiguous statute, Id., that arbitration award is effective upon
the Respondents acquiescence to non judicial judgment at
Federal Arbitration Act and the void order issued by the clerk of
court, this court should grant review in this case to continue to
uphold Henry Schein, Inc, Id. It should eliminate the confusion
and confirm that Henry Schein, Inc., apply throughout California
and nationwide, specially to a void judgment by a clerk.
-35 -

CONCLUSION
For these reasons, the petition for writ of certiorari should
be granted.
DATED: 12th day of October, 2020
Respectfully presented,
All rights reserve waive none

9

By:
F areed-S epehry-F ard ©

-36-

